No. ee
IN THE
Supreme Court of the United States

HEMY NEUMAN,
Petitioner,
v.
STATE OF GEORGIA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Pursuant to Rule 39 of the Rules of the Supreme Court of the United States, Pe-
titioner Hemy Neuman asks leave to file the attached petition for a writ of certiorari
to the Georgia Supreme Court without prepayment of costs and to pro-
ceed in forma pauperis.

Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:

Superior Court of DeKalb County, Georgia
Georgia Supreme Court

Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding. The appointment was made under
the following provision of law: Georgia Indigent Defense Act of 2003, OCGA § 17-

12-1, et seq.

MICHAEL W. TARLETON

Counsel of Record

The Appellate Division

Georgia Public Defender Council
270 Washington Street, #5198
Atlanta, Georgia 30334

(404) 739 5168
mtarleton@gapubdef.org
